                                                                                  Report No. DODIG-2012-056
                                                                                           February 27, 2012




DEPUTY INSPECTOR GENERAL FOR INTELLIGENCE 

     AND SPECIAL PROGRAM ASSESSMETS


  Report on Sensitive Compartmented Information 

        Leaks in the Department of Defense





This document will not be released (in whole or in part) outside the Department of Defense without the
           prior written approval of the Inspector General of the Department of Defense.
Additional Information

The Department of Defense Office of the Deputy Inspector General for Intelligence and
Special Program Assessments prepared this report. If you have questions, please contact
the signer of the report.




Acronyms and Abbreviations
DoDD                         Department of Defense Directive
DoDI                         Department of Defense Instruction
ODIG-ISPA                    Office of the Deputy Inspector General for Intelligence and
                              Special Program Assessments
SCI                          Sensitive Compartmented Information
U.S.C.                       United States Code
cc:
CONGRESSIONAL COMMITTEES AND SUBCOMMITTEES, CHAIRMAN
  AND RANKING MINORITY MEMBER
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Select Committee on Intelligence
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Armed Services
  House Permanent Select Committee on Intelligence
  House Committee on Oversight and Government Reform
  House Subcommittee on Defense, Committee on Appropriations
  House Subcommittee on National Security, Homeland Defense and Foreign Operations,
     Committee on Oversight and Government Reform
This page intentionally left blank. 

Introduction
Objective

This report is in response to a provision in the Classified Annex (Appendix J) of the FY 2012
House Defense Appropriations Bill, directing the Inspectors General of the DoD and Central
Intelligence Agency in coordination with the IGs of affected agencies, to conduct an
investigation on the leaks of highly classified information a copy of which can be found in
Appendix A. The Deputy Inspector General for Intelligence and Special Program
Assessments (ODIG-ISPA) conducted an investigation of the concerns addressed in the
Classified Annex. The results are provided herein.

Background

The House Defense Appropriations Committee stated concerns in the above mentioned
Classified Annex with “the number of leaked classified and compartmented facts and reports
that have occurred over the past three calendar years.” Specifically, the Committee
expressed concerns that “sources and methods used for clandestine and covert action are
being exposed on a regular basis and is of grave concern.”

Scope and Methodology

In conducting the investigation, the ODIG-ISPA conducted a detailed review of relevant
DoD policies, regulations, and instructions. ODIG-ISPA then issued data calls
throughout DoD to address the Subcommittee’s request.

The ODIG-ISPA collected the following:

       •	 An inventory of all identified unauthorized disclosures of SCI to the public
          within DoD from the past three calendar years (December 23, 2008-December
          23, 2011);
       •	 The actions taken by DoD to investigate each of the unauthorized disclosure
          events;
       •	 Which of the unauthorized disclosure investigations were referred by DoD to
          the Department of Justice; and,
       •	 What additional actions were taken by DoD after the Department of Justice
          investigation.

For purposes of consistency during the investigation, ODIG-ISPA used the following
definitions:

Classified Information-“any information that has been determined pursuant to Executive
Order 12356 of April 2, 1982, or successor orders, or the Atomic Energy Act of 1954 [42
U.S.C. 2011 et seq.], to require protection against unauthorized disclosure that is so
designated”(50 U.S.C. 438)



                                              1

Leak- Unauthorized disclosure of SCI to the public which is defined as: “A
communication or physical transfer of [SCI] information to an unauthorized recipient.”
DoDD 5210.50, Section 3.2, “Unauthorized Disclosure of Classified Information to the
Public,” dated July 22, 2005

Sensitive Compartmented Information (SCI)- “Classified national intelligence
information concerning or derived from intelligence sources, methods, or analytical,
processes that is required to be handled within formal access control systems established
by the Director of National Intelligence.” DoDI 5200.01, Definitions, “DoD Information
Security Program and Protection of Sensitive Compartmented Information," dated
October 9, 2008.

Senior Official- “Active duty, retired, Reserve, or National Guard military officers in
grades O-7 and above, or selected for promotion to grade O-7; current and former
members of the Senior Executive Service; other current and former DoD civilian
employees whose positions are deemed equivalent to that of a member of the Senior
Executive Service (e.g., Defense Intelligence Senior Executive Service employees,
Senior Level employees, and non-appropriated fund senior executives); and current and
former Presidential appointees.” DoDD 5205.06, Section 3.3, “DoD Investigations of
Allegations Against Senior Officials of the Department of Defense," dated April 10,
2006, Incorporating Change 1, September 17, 2010.

Results

We confirmed with DoD components that some unauthorized disclosures of SCI to the
public did occur within DoD between December 23, 2008 and December 23, 2011.
Among the unauthorized SCI disclosures to the public reported, a DoD Senior Official
was directly attributed as a source of unauthorized SCI disclosures to the public. DoD
components also reported that they followed established DoD guidance and procedures
for forwarding unauthorized disclosure cases to the Department of Justice for action
when appropriate.

The DoD is currently undertaking a major revision to the DoD issuances that affect the
standard reporting process for unauthorized disclosures of SCI to the public. The
Directorate of Security in the Office of the USD(I) has updated DoD Manual 5105.21,
Sensitive Compartmented Information (SCI) Administrative Security Manual which is
now at the Washington Headquarters Services Directives Division for pre-signature
review. The Directorate of Security in the Office of the USD(I) stated this revision
incorporates a more specific process for the DoD components to report unauthorized
disclosures of SCI.




                                            2

Appendix A. Classified Annex (Appendix J) of the
FY 2012 House Defense Appropriations Bill




                          3

This page intentionally left blank. 





                 4

